                                   Report Template Update: 04-03-08




Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 DEPARTMENT OF HEALTH AND
 HUMAN SERVICES EMPLOYEE
  TRAVEL CARDS: USAGE AND
     INTERNAL CONTROLS




                    Daniel R. Levinson
                     Inspector General

                       April 2009
                     OEI-07-07-00480
                                                                      Report Template Update: 04-03-08




                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
                                                                                                Report Template Update: 04-03-08




Δ   E X E C U T I V E                                 S U M M A R Y


                  OBJECTIVES
                  To determine (1) the extent to which the travel card transactions that
                  Department of Health and Human Services (HHS) employees made in
                  2007 constitute misuse and (2) whether travel card internal controls,
                  such as guidance, training, transaction reviews, and follow-up actions,
                  work as intended to prevent or address misuse.


                  BACKGROUND
                  Federal regulations require an employee who travels more than five
                  times per year to obtain a Government travel card. Pursuant to the
                  Federal Travel Regulation and the “HHS Travel Manual,” official travel
                  expenses include transportation, lodging, meals, and incidentals
                  associated with official temporary duty travel. Misuse is defined, in
                  part, as the use of a Federal charge card for other than the official
                  Government purpose for which it is intended. Travel card program
                  administrators, including Agency/Organization Program Coordinators
                  (A/OPC) and cardholder supervisors, are responsible for reviewing
                  reports to monitor cardholder activities, including misuse. Travel
                  cardholders are personally liable for transactions made with their travel
                  cards.

                  During 2007, HHS employees used travel cards to make approximately
                  346,000 transactions totaling $68 million, excluding negative
                  transactions, transactions of less than $5, and transactions that
                  represent fees charged by the HHS-contracted travel agent. From the
                  universe of 2007 transactions, we selected a simple random sample of
                  220 transactions to produce an overall estimate of misuse. We also
                  selected a stratified random sample of 213 transactions from the
                  subpopulation of transactions that did not match electronic voucher
                  data. For both samples, we contacted the A/OPC for each transaction to
                  obtain information to determine whether misuse occurred. We
                  conducted interviews with A/OPCs, cardholder supervisors, and
                  employee and labor relations staff regarding the administration of the
                  travel card program.


                  FINDINGS
                  Six percent of 2007 travel card transactions constituted misuse.
                  Four percent of the 2007 transactions were for personal purchases while
                  cardholders were not on official travel, 1 percent were for personal

OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                             i
                                                                                                 Report Template Update: 04-03-08




E X E C U T I V E                      S U          M M A R Y


                   purchases while the cardholders were on official travel, and 1 percent
                   were for local travel expenses.
                   Twenty-seven percent of transactions that did not match electronic
                   voucher data constituted misuse. Twenty-one percent of the 2007
                   transactions that did not match electronic voucher data were for
                   personal purchases, 2 percent for local travel expenses, 2 percent for
                   conference registration, and 1 percent for travel-related expenses of
                   persons other than cardholders. (Because of rounding, the percentages
                   do not add to 27.)
                   Program guidance is lacking in some areas, and training does not
                   meet requirements. Current travel card guidance lacks specificity on
                   allowable purchases and follow-up actions for misuse, and training does
                   not meet Office of Management and Budget (OMB) requirements.
                   Program administrators may not identify all misuse. Less than half
                   of the A/OPCs that we interviewed matched transactions with travel
                   dates to identify potential misuse. Focusing only on atypical merchants
                   would not identify lodging and airline tickets for personal travel.
                   Cardholder supervisors reported limited roles in the travel card
                   program.
                   Less than one-third of sampled transactions that constituted misuse
                   were associated with follow-up actions. This can be explained in part
                   by deficiencies in the travel card program, including a lack of specific
                   guidance, training that does not meet OMB requirements or users’
                   needs, and review techniques that may not identify all misuse.


                   RECOMMENDATIONS
                   OIG recommends that the Assistant Secretary for Administration and
                   Management:
                   Improve travel card program guidance. Topics could include:
                   (1) specific examples of unallowable purchases with the travel card,
                   (2) a departmental Table of Penalties that sets minimum and maximum
                   guidelines on the actions to take for specific types of travel card misuse,
                   and (3) instructions for reporting travel card misuse to employee and
                   labor relations offices.
                   Improve travel card program training. At a minimum, the frequency
                   and documentation of the training must meet the requirements in
                   Appendix B of OMB Circular A-123, and the training content should
                   meet users’ needs. Training topics could include: (1) specific examples

 OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            ii
                                                                                                 Report Template Update: 04-03-08




E X E C U T I V E                      S U          M M A R Y


                   of unallowable purchases with the travel card for cardholders and
                   (2) procedures and communication strategies for A/OPCs and cardholder
                   supervisors to identify and respond to misuse.
                   Improve methods to identify misuse. These methods could include:
                   (1) providing an automated data-matching program to compare dates of
                   authorized travel to transaction dates and (2) communicating to A/OPCs
                   and cardholder supervisors the availability of online access to
                   transaction information.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments to the report, the Assistant Secretary for
                   Administration and Management (ASAM) accepted each of the three
                   recommendations. For each recommendation, ASAM described actions
                   it has taken or will take to address it. For example, ASAM updated the
                   HHS Travel Manual in May 2008, coordinated with the Office of the
                   Secretary and the General Services Administration to secure travel card
                   training compliant with Appendix B of OMB Circular A-123, and plans
                   to develop an internal data mining tool for all agencies to identify
                   potential travel card misuse. We did not make any changes to the
                   report based on ASAM’s comments.




 OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           iii
                                                                               Report Template Update: 04-03-08




Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
                   Six percent of transactions constituted misuse . . . . . . . . . . . . . . . . 9

                   Twenty-seven percent of transactions that did not match
                   electronic voucher data constituted misuse . . . . . . . . . . . . . . . . . . 10

                   Guidance is lacking; training does not meet requirements . . . . . . 12

                   Program administrators may not identify all misuse . . . . . . . . . . 15

                   Not all misuse led to follow-up actions. . . . . . . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   Agency Comments and Office of Inspector General Response . . . 19



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                   A: Sampled Transactions by Agency . . . . . . . . . . . . . . . . . . . . . . . 20

                   B: Sampled Agency/Organization Program Coordinators
                      by Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                   C: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 22

                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                                                                                                 Report Template Update: 04-03-08




D E S I G N
Δ    I N T R O D U C T I O N


                   OBJECTIVES
                   To determine (1) the extent to which the travel card transactions that
                   Department of Health and Human Services (HHS) employees made in
                   2007 constitute misuse and (2) whether travel card internal controls,
                   such as guidance, training, transaction reviews, and follow-up actions,
                   work as intended to prevent or address misuse.


                   BACKGROUND
                   Federal regulations require employees who travel more than five times
                   per year to obtain an Individually Billed Account travel charge card
                   (hereinafter referred to as a travel card). The regulations further
                   require that travelers use the travel card for all official travel and
                   travel-related transactions unless those transactions are specifically
                   exempted. 1 Federal employees enter into contractual agreements with
                   the servicing bank (U.S. Bank for HHS in 2007) indicating that they
                   will use the card only for official travel and travel-related transactions
                   in accordance with agency policy and will pay all charges they incur.

                   During 2007, HHS employees used travel cards to make
                   346,441 transactions totaling $68,323,684, excluding negative
                   transactions (i.e., credits to the travel card), transactions of less than
                   $5, and transactions that represent fees charged by the HHS-contracted
                   travel agent. Table 1 shows the number and total dollar amount of
                   transactions by category.




                     1 The Travel and Transportation Reform Act of 1998, P.L. No. 105-264,

                   5 U.S.C. § 5701 note, required the promulgation of governmentwide regulations requiring
                   Federal employees to use travel charge cards for all payments of expenses of official
                   Government travel. Subpart 301-51 of the Federal Travel Regulation (FTR) establishes the
                   requirements for using the Government travel charge card (41 CFR § 301-51). Examples of
                   exempt official travel transactions include parking and taxi services (41 CFR § 301-51.2).



 OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            1
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    Table 1: 2007 Travel Card Transactions by Category
                                                               Number of                                         Dollar amount of
                    Category*
                                                            Transactions                                            Transactions
                    Hotels                                                                             107,228            $37,877,956
                    Airline                                                                             33,801            $15,673,057
                    Money                                                                               36,906             $5,375,407
                    Rental Cars                                                                         15,752             $2,802,889
                    Eating/Drinking                                                                     73,130             $1,921,377
                    Vehicle Expense                                                                     48,895             $1,684,289
                    Other Travel                                                                        18,299             $1,482,368
                    Business Expense                                                                     2,690              $520,391
                    Other                                                                                3,822              $357,972
                    Office Services                                                                      1,431              $255,447
                    Wholesale Trade                                                                      2,875              $141,622
                    Maintenance, Repair, and Operating Supplies                                           336               $104,950
                    Medical                                                                               587                $39,405
                    Office Supplies                                                                       469                $30,586
                    Mail/Telephone                                                                        108                $30,166
                    Retail Services                                                                        39                  $9,621
                    Automobile/Recreational Vehicle Dealers                                                 57                $8,648
                    Building Services                                                                      13                 $6,943
                    Retail Goods                                                                            3                   $590
                       Total                                                                           346,441            $68,323,684

                    Source: Office of Inspector General (OIG) analysis of U.S. Bank database of 2007 HHS travel card
                    transactions, 2008.

                    *U.S. Bank assigns each transaction to a predefined category.


                    Travel Card Guidance
                    Requirements for the use of travel cards are contained in the FTR,
                    pt. 301-51; HHS-wide supplemental policy and guidance is contained in
                    the “HHS Travel Manual,” Chapter 9-00. According to the FTR and the
                    “HHS Travel Manual,” official travel expenses include transportation,
                    lodging, meals, and incidentals associated with official temporary duty
                    travel. 2 The travel card may not be used for personal expenses at any
                    time. 3 Misuse is defined as the use of a Federal charge card for other
                    than the official Government purpose for which it is intended. 4


                       2 “HHS Travel Manual,” Chapter 9-00-10.I prohibits use of the travel card for expenses

                    within the local travel area, with certain exceptions such as rental cars.
                       3 41 CFR § 301-51.6 and “HHS Travel Manual,” Chapter 9-00-10.H.
                       4 Office of Management and Budget (OMB) Circular A-123, Appendix B, Attachment 1.




 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            2
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    OMB’s Circular A-123, Appendix B, requires Federal agencies to
                    maintain internal controls that reduce the risk of fraud, waste, and
                    delinquency (i.e., failure to pay travel card bills in a timely manner) in
                    Government charge card programs. A summary of the various
                    requirements includes:

                    •      written policies and procedures for the appropriate use of travel
                           cards;

                    •      training frequency and content for Agency/Organization Program
                           Coordinators (A/OPC), 5 approving officials (typically cardholder
                           supervisors), and cardholders;

                    •      risk management controls ranging from general (e.g., ensuring that
                           practices to mitigate risks associated with the charge card program
                           are carried out) to specific (e.g., reviewing transactions to detect
                           instances of misuse); and

                    •      administrative and disciplinary actions that may be imposed on
                           cardholders to address misuse of their travel cards.

                    In April 2005, the Assistant Secretary for Administration and
                    Management (ASAM) issued memoranda to cardholders and cardholder
                    supervisors. The memorandum to cardholders reminded them that
                    using the travel card for purchases unrelated to official travel or failing
                    to pay travel card bills in a timely manner constitutes misuse.
                    Cardholders signed the HHS Traveler’s Agreement for Government
                    Contractor-Issued Travel Charge Card Users to document receipt of the
                    memorandum. The memorandum to supervisors stated that a
                    supervisor has the responsibility to: (1) ensure that a process is in place
                    for reviewing reports to identify misuse, (2) ensure that inquiries are
                    conducted to determine whether misuse occurred, (3) consult with his or
                    her employee and labor relations office when deciding what action to
                    take, and (4) properly address instances of a subordinate’s misuse of the
                    travel card. The memorandum included examples of misuse and related
                    travel card misconduct (e.g., submitting a false travel voucher). It also
                    included possible actions that supervisors might take in instances of
                    misuse or misconduct, such as counseling, official reprimand,


                        5 An A/OPC serves as an intermediary between the cardholder, the card-issuing bank,
                    and agency management. An A/OPC’s role includes account setup and maintenance,
                    understanding and implementing the FTR and agency travel policies, and monitoring
                    cardholder activity.



 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            3
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    suspension from duty without pay, reassignment or downgrade to a
                    position not involving travel, or removal from the position and Federal
                    service. However, the memorandum did not specify which particular
                    action should be taken in response to various types of misuse or
                    misconduct.

                    Most, but not all, of the HHS agencies have issued their own travel card
                    guidance manuals. Generally, these manuals offer guidance to
                    cardholders in greater specificity than that contained in the FTR or the
                    “HHS Travel Manual” (e.g., the step-by-step mechanics of obtaining a
                    cash advance at an automated teller machine (ATM)). Agencies may be
                    more, but not less, restrictive than the FTR and HHS travel card
                    guidance.
                    Travel Card Training
                    OMB Circular A-123 requires that all A/OPCs, approving officials, and
                    travel cardholders receive training before taking on such roles and
                    refresher training at a minimum of every 3 years. Copies of training
                    certificates must be maintained. For A/OPCs, approving officials, and
                    cardholders, the training content must include the provisions of the
                    FTR and proper card use. The training for A/OPCs must further
                    include oversight tools and techniques.
                    Travel Card Oversight
                    A/OPCs are responsible for reviewing monthly transaction reports from
                    the card-issuing bank (which was U.S. Bank in 2007) to monitor
                    cardholder activities, including misuse. 6 Each of the 12 HHS agencies
                    has one individual who serves as the principal A/OPC for that agency. 7
                    Under this individual, one or more primary and/or alternate A/OPCs
                    work at the division or office level. According to information U.S. Bank
                    provided us in January 2008, HHS had 370 primary and 252 alternate
                    A/OPCs to oversee the purchasing activities of approximately
                    32,000 travel cardholders.
                    Related Studies
                    In 2003, the Government Accountability Office (GAO) released a report
                    entitled “Controls over Travel Program Are Generally Effective, but
                    Some Improvements Are Needed” regarding travel-card-monitoring
                    processes and 2001 travel card transactions in five HHS


                       6 “HHS Travel Manual,” Chapter 9-00-10.J.
                       7 There are 11 principal A/OPCs in HHS. Two agencies share the same principal A/OPC.




 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            4
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    agencies (GAO-03-334). This report found that controls over the travel
                    program were generally effective but that monitoring of travel card use
                    focused mainly on delinquencies. GAO found that 71 of 430 sampled
                    transactions were unauthorized, meaning that they were for personal
                    use or the agency lacked documentation to support that the transactions
                    were for official travel expenses. The methods used in the GAO report
                    do not allow for comparison to the results of this report. In 2002, the
                    President’s Council on Integrity and Efficiency (PCIE) issued a report
                    entitled “Review of Common Problems and Best Practices in Federal
                    Agencies’ Travel Card Programs.” This report synthesized OIG
                    evaluations and audits of six Federal agencies’ travel card programs
                    (HHS was not included).


                    METHODOLOGY
                    Transaction Data
                    U.S. Bank provided us with the following data: (1) a departmentwide
                    database of 2007 HHS travel card transactions, including the account
                    number, transaction date, merchant name and category, amount, and
                    unique transaction identification number for each transaction, and
                    (2) a listing of all HHS cardholders, including name and account
                    number.

                    The National Institutes of Health (NIH) Business System provided
                    2007 electronic travel voucher data, including employee name, dates of
                    departure and return, and location. The HHS Program Support Center
                    provided 2007 electronic travel voucher data for all other HHS agencies,
                    including employee name, dates of departure and return, travel card
                    account number, and location. This information was combined to create
                    a departmentwide electronic voucher dataset.
                    Sample Selection of Transactions
                    Overall sample
                    From the 402,301 HHS cardholder transactions in 2007, we excluded
                    11,306 negative transactions (i.e., credits to travel cards),
                    10,158 transactions of less than $5, and 34,396 transactions
                    representing fees charged by the HHS-contracted travel agents for
                    airline reservations, leaving a universe of 346,441 transactions. To
                    produce an overall estimate of transactions that constituted misuse, we
                    selected a simple random sample of 220 transactions.




 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            5
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    Sample of transactions that did not match electronic voucher data
                    To examine transactions with a higher likelihood of being unrelated to
                    official travel, we looked at a subset of the universe of
                    346,441 transactions. We matched official travel dates from the
                    electronic departmental travel voucher data against transaction dates
                    from the U.S. Bank transaction data. We allowed a 5-day window
                    before the departure date for advance purchase of airline tickets, train
                    tickets, and ATM withdrawals and up to 4 days after the return date for
                    posting of hotel and rental car transactions. We matched the
                    transaction date of each transaction against the dates in the database of
                    travel voucher dates by travel card account number or by cardholder
                    name if an account number did not match or was not listed in the
                    voucher data. 8 Of the 346,441 unique transactions, 53,504 (15 percent)
                    did not match electronic voucher data.

                    To produce estimates of the proportion and dollar amount of
                    transactions that constituted misuse for this subpopulation, we selected
                    a stratified random sample by dollar amount as shown in Table 2.

                    Table 2: Transaction Population and Sample Size
                                                                 Population
                    Strata Definition                                                                                   Sample Size
                                                                       Size
                    1. Transactions from $5.00 through $250.00                                              44,111                   80
                    2. Transactions from $250.01 through $4,000.00                                           9,340                   80
                    3. Transactions over $4,000.00                                                              53                   53
                       Total                                                                                53,504                   213
                    Source: OIG analysis of U.S. Bank database of 2007 HHS travel card transactions, 2008.


                    Determinations of Misuse
                    For the sampled transactions in both sampling frames, we contacted the
                    principal A/OPC for each agency with a list of all transactions for that
                    agency to determine which A/OPC would best be able to explain
                    whether each transaction was related to authorized travel. In some
                    cases, the principal A/OPC at the agency indicated that he or she would
                    be the appropriate person to explain each sampled transaction; in
                    others, the principal A/OPC provided the contact information for
                    division or office-level A/OPCs.



                       8 Sometimes when a cardholder’s account number changed (e.g., because a card was lost
                    or stolen), it was not updated promptly in the electronic voucher data.



 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            6
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    We contacted the designated A/OPC for each transaction to obtain a
                    description of what was purchased, an explanation as to whether the
                    transaction was related to authorized travel, and a description of any
                    followup (e.g., verbal counseling, disciplinary action) that had occurred
                    with the cardholder related to the sampled transaction before our
                    inquiry. We also asked the A/OPC to indicate the sources of information
                    (e.g., electronic records, cardholder, cardholder’s supervisor) that he or
                    she accessed to respond to our inquiry. In our cover letter to the
                    A/OPCs, we asked the A/OPCs to diligently search all available
                    documents and other sources of information. Based on the information
                    the A/OPCs supplied to us, we attempted to determine which sampled
                    transactions constituted misuse according to the criteria in the
                    departmental and agency guidance. In cases where the guidance did
                    not adequately address whether a transaction constituted misuse, we
                    consulted with ASAM officials. To ensure consistent determinations of
                    misuse according to ASAM directives, we made independent
                    determinations rather than relying on A/OPC interpretations and
                    applications of travel card guidance.

                    A/OPCs were unable to provide information for four sampled
                    transactions (e.g., the cardholder had retired). Two of these
                    transactions were from the overall sample, and two were from the
                    transactions that did not match electronic voucher data. We did not
                    count these transactions as misuse. See Appendix A for the number of
                    sampled transactions by agency.
                    Structured Interviews of A/OPCs and Cardholder Supervisors
                    We received a database of the names and contact information for all
                    A/OPCs from U.S. Bank. We interviewed each of the principal A/OPCs
                    within each of the 12 agencies and a random sample of 50 primary
                    A/OPCs at the division or office level. The sampling scheme ensured
                    that each agency that had A/OPCs at the division or office level was
                    represented. We selected A/OPCs at random from the total number of
                    A/OPCs proportionate to the number of cardholders at each agency. See
                    Appendix B for the number of sampled A/OPCs by agency. We also
                    selected one cardholder supervisor who corresponded with each sampled
                    A/OPC for an interview. If a sampled A/OPC corresponded with more
                    than one cardholder supervisor, we randomly selected one cardholder
                    supervisor from the universe of supervisors corresponding with the
                    sampled A/OPC. Because of the small sample size, we did not project
                    the results of the interviews.


 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            7
                                                                                                  Report Template Update: 04-03-08




I N T R O D        U C T            I O N


                    During the interviews, we inquired about A/OPCs’ knowledge of and
                    experiences with misuse of travel cards by departmental cardholders.
                    We addressed issues such as the procedures that A/OPCs and
                    cardholder supervisors used to identify misuse, corrective actions that
                    A/OPCs and cardholder supervisors have employed or would employ if
                    misuse was identified, when and how A/OPCs and cardholder
                    supervisors reported misuse, and corresponding corrective actions. We
                    also interviewed these officials regarding training for A/OPCs,
                    cardholder supervisors, and cardholders.
                    Structured Interviews of Employee and Labor Relations Staff
                    We interviewed employee and labor relations staff from each of the five
                    HHS human resource centers: Atlanta, Baltimore, the Indian Health
                    Service, NIH, and Rockville. During the interviews, we inquired about
                    addressing travel card misuse, written criteria for addressing misuse,
                    and agencies’ frequency of contact with the employee and labor relations
                    staff regarding travel card misuse.
                    Limitations
                    Although ASAM has identified delinquency as a type of travel card
                    misuse, this evaluation did not examine it. We did not attempt to
                    match transactions with hard copy vouchers if they did not match
                    departmental electronic voucher data. The sampling method does not
                    allow a dollar projection of transactions that constituted misuse for the
                    overall sample. It also does not allow a comparison of transactions that
                    constituted misuse between agencies within HHS. Although it is
                    possible that a single transaction could have been selected in both
                    sampling frames, this did not occur.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by PCIE and the Executive Council on Integrity and
                    Efficiency.




 OEI-07-07-00480    H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                            8
                                                                                                Report Template Update: 04-03-08




Δ   F I N D I N G S

                                                        Unlike other Government charge
Six percent of 2007 travel card transactions            card programs, the travel card
                         constituted misuse             program makes the travel
                                                        cardholder responsible for all
                  charges on his or her account and the bill is sent directly to the
                  cardholder for payment. There is no monetary loss to the Government if
                  cardholders charge non-travel-related purchases on their travel cards
                  and pay their bill in full upon receipt. However, the travel card is not
                  an employee’s personal credit card, and the FTR and “HHS Travel
                  Manual” prohibit use of the card as a vehicle to finance personal
                  purchases.
                  Overall, 6 percent (14 of 220) of the 2007 travel card transactions
                  constituted misuse, with 4 percent of the transactions made for personal
                  purchases while the cardholder was not on official travel, 1 percent for
                  personal purchases while the cardholder was on official travel, and
                  1 percent for local travel expenses. Confidence intervals for the
                  projections can be found in Appendix C. To develop our projections, we
                  reviewed 220 sampled transactions totaling approximately $35,000. 9
                  The average amount of the sampled transactions that constituted
                  misuse was $83.68, ranging in our sample from $8.00 to $489.30.
                  Table 3 summarizes the number and amount of misuse transactions by
                  merchant category.
                  Table 3: Misuse Transactions by Merchant Category
                                                             Number of
                  Category                                                                                          Amount
                                                          Transactions
                  Airline                                                                                   2         $529.30
                  Hotels                                                                                    2         $275.00
                  Vehicle Expense (e.g., gasoline, parking)                                                 4         $147.45
                  Money                                                                                     1         $102.00
                  Other (e.g., retail)                                                                      1          $24.99
                  Eating/Drinking                                                                           2          $44.27
                  Other Travel                                                                              1          $30.00
                  Wholesale Trade                                                                           1          $18.57
                     Total                                                                                 14        $1,171.58
                  Source: OIG analysis of A/OPCs' responses to transaction inquiries, 2008.




                    9 The sampling scheme does not allow a projection of the dollar amount of transactions
                  that constituted misuse for the overall sample.



OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                               9
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      Four percent of 2007 transactions were for personal purchases while the
                      cardholder was not on official travel
                      Personal purchases included airfare in the amount of $489.30 to attend
                      a relative’s funeral, $267.00 for lodging for a personal trip following
                      official travel, a $102.00 cash advance, and $24.99 at a sporting goods
                      store, as well as gasoline and food purchases. For these transactions,
                      A/OPCs reported that the cardholder was not on official travel at the
                      time of the transactions. For the cash advance transaction, the A/OPC
                      indicated that the cardholder used the travel card “accidentally while on
                      personal travel.”
                      One percent of 2007 transactions were for personal purchases while the
                      cardholder was on official travel
                      Two purchases are included in this category: $40.00 for an airline
                      upgrade and $18.57 for tablecloths purchased while traveling
                      internationally. Cardholders made these purchases while on official
                      travel; however, they were for items unrelated to official Government
                      business.
                      One percent of 2007 transactions were for local travel expenses
                      The travel card may not be used for expenses within the local travel
                      area, with the exception of expenses for authorized rental cars. 10 Three
                      purchases of parking and gasoline were made on travel cards for local
                      travel expenses totaling $59.00.



      Twenty-seven percent of transactions that               Of the transactions that did not
         did not match electronic voucher data                match electronic voucher data
                                                              (53,504 of 346,441 transactions),
                           constituted misuse
                                                              27 percent constituted misuse,
                      which projects to $1.4 million. Twenty-one percent of the transactions
                      that did not match electronic voucher data were for personal purchases,
                      2 percent for local travel expenses, 2 percent for conference registration,
                      and 1 percent for travel-related expenses of persons other than
                      cardholders. 11 However, the majority of the transactions were in
                      support of official Government travel. To develop our projections, we
                      reviewed 213 sampled transactions totaling approximately $364,000.
                      Thirty-four sampled transactions constituted misuse. The projected


                         10 “HHS Travel Manual,” Chapter 9-00-10.
                         11 Because of rounding, the percentages do not add to 27.




    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           10
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      average amount of the transactions constituting misuse was $97.30,
                      ranging in the sample from $5.12 to $4,955.53. Table 4 summarizes the
                      number and amount of sampled transactions that constituted misuse by
                      merchant category.

                      Table 4: Misuse Transactions That Did Not Match Electronic Voucher
                      Data by Merchant Category
                                                                  Number of
                      Category                                                   Amount
                                                                Transactions
                      Hotels                                                                                     5      $5,742.19
                      Money                                                                                      4      $1,346.50
                      Business Expense                                                                           4      $1,192.82
                      Maintenance, Repair, and Operating Supplies                                                1        $685.00
                      Office Services                                                                            1        $495.00
                      Other                                                                                      2        $336.87
                      Airline                                                                                    1        $299.40
                      Eating/Drinking                                                                            9        $297.09
                      Vehicle Expense (e.g., gasoline, parking)                                                  6        $207.28
                      Wholesale Trade                                                                            1         $14.79
                         Total                                                                                  34     $10,616.94
                      Source: OIG analysis of A/OPCs' responses to transaction inquiries, 2008.


                      Twenty-one percent of transactions were for personal purchases
                      Examples of these transactions include lodging at a Hawaii hotel for
                      $4,955.53 during a deployed employee’s military leave; cash advances of
                      $600.00, $502.50, $143.00, and $101.00; a purchase at a casual clothing
                      store for $136.87; gasoline for a personal vehicle for $30.01; and
                      restaurant charges ranging from $5.12 to $138.90.
                      Two percent of transactions were for local travel expenses
                      As stated previously, the travel card may not be used for local travel
                      expenses. Cardholders purchased lodging and meals totaling
                      $237.81 while on local travel. For example, one cardholder while on
                      local travel charged one night’s lodging on her travel card because of
                      inclement weather. She was not reimbursed for this charge.
                      Two percent of transactions were for conference registration
                      The FTR does not clearly prohibit the payment of conference
                      registration fees with the travel card. However, as a direct result of
                      Congress’s concern regarding conference expenses for Federal
                      employees, HHS issued supplemental guidance in April 2007 stating
                      that employees “may not use a travel card to charge early-bird
                      conference registration fees.” This guidance was later incorporated in

    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                              11
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      the “HHS Travel Manual.” Although HHS guidelines do not explicitly
                      state that cardholders may not use travel cards to pay normal
                      conference registration fees, ASAM officials advised us that travel cards
                      should never be used for conference registration fees. Six cardholders
                      charged conference registration fees totaling $2,510.00 on travel cards.
                      Based on the merchant categories assigned to various organizations
                      that offer conferences, the conference registration fees fall within the
                      categories of Business Expense; Maintenance, Repair, and Operating
                      Supplies; Office Services; and Other.
                      One percent of transactions were for travel-related expenses of persons
                      other than the cardholders
                      The HHS Traveler’s Agreement stipulates that the travel card may be
                      used only for the cardholder’s own authorized official business expenses,
                      and use of the card for any other purpose is misuse. One cardholder
                      purchased a $299.40 airline ticket for a staff member who did not have
                      a travel card, and another cardholder purchased dinner totaling $82.00
                      for four individuals and received cash reimbursement from the three
                      other travelers.
                      The majority of transactions were in support of official Government travel
                      Most transactions that did not match electronic voucher data were
                      legitimate. For example, travelers requested official flights to be
                      ticketed more than 5 days before the departure date (e.g., to lock in an
                      airfare when a noncontract flight was necessary). In addition, when
                      cardholders charged travel-related transactions on their travel cards
                      but were reimbursed through a source other than one of HHS’s
                      electronic travel voucher systems (e.g., the travel was paid for by
                      another agency, the employee was involved in a permanent change of
                      station), the transactions did not match electronic voucher data. Still,
                      transactions that did not match produced a statistically significant
                      higher rate of transactions constituting misuse when compared to
                      transactions overall.



     Program guidance is lacking in some areas, and               Using available guidance, we
                                                                  could not determine without
               training does not meet requirements
                                                                  consulting ASAM whether
                      six types of transactions in our samples constituted misuse. Some
                      A/OPCs and cardholder supervisors that we interviewed had questions
                      regarding whether specific types of transactions are allowed with the



    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           12
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      travel card. Additionally, current training practices do not meet OMB
                      requirements.
                      Travel card guidance lacks specificity on allowable purchases
                      After reviewing available guidance, we had to consult ASAM to
                      determine whether the following types of transactions in our samples
                      constituted misuse:

                      (1)        a passport photo,
                      (2)        meals on the first or last day of travel in the employee’s office
                                 location,
                      (3)        paying for another traveler’s meals,
                      (4)        gasoline for personal vehicles,
                      (5)        costs for mailing materials to the employee’s office, and
                      (6)        conference registration.

                      In some cases, the guidance was silent on the type of purchase, and in
                      other cases the guidance did not address the specifics of the purchase.
                      For example, we did not find any guidance related to gasoline purchases
                      for personal vehicles (e.g., for traveling to or from the airport). We note
                      that in our interviews, some A/OPC interpretations of these six types of
                      transactions differed from the views of ASAM officials. This lack of
                      consistent understanding can lead to cardholders inadvertently
                      misusing their travel cards because they have received inaccurate
                      responses when seeking guidance.

                      Division- and office-level A/OPCs are often sought for answers regarding
                      the travel card program. Forty-two of the fifty sampled A/OPCs said
                      they received questions from cardholders, and 26 said they received
                      questions from supervisors. A/OPCs reported that questions they
                      received included questions on allowable uses of the card. For example,
                      six A/OPCs volunteered that they had been asked whether conference
                      registration is an allowable travel card charge. Overall, 24 of 50
                      A/OPCs and 18 of 50 cardholder supervisors indicated that they want to
                      receive additional guidance on the travel card program.
                      Guidance on follow-up actions and penalties is lacking
                      Neither the “HHS Travel Manual” nor the 2005 memoranda from ASAM
                      describe specific follow-up actions and penalties for travel card misuse.
                      The 2002 PCIE report on travel card misuse stated that a lack of such
                      guidance may result in employees being treated differently for the same
                      type of misuse.




    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           13
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      At the time of this evaluation, only NIH had published a Table of
                      Penalties that outlines the actions supervisors must take in response to
                      travel card misuse. NIH’s guidance states that at a minimum the
                      supervisor must address the misuse by meeting with and counseling the
                      employee. In cases of repeated or serious travel card misuse, the NIH
                      Table of Penalties describes a range of formal actions a supervisor may
                      take.
                      Training does not meet OMB requirements for frequency and documentation
                      OMB Circular A-123 requires that all A/OPCs, approving officials
                      (typically cardholder supervisors), and travel cardholders receive
                      training before taking on those roles and refresher training at a
                      minimum every 3 years. Copies of training certificates must be
                      maintained. Principal agency-level A/OPCs reported that they did not
                      maintain training records. An ASAM official confirmed that no
                      centralized database of training records existed at the time of our
                      review. This official reported, however, that an online training module
                      that would maintain completion records was under development.

                      Of the 50 division- and office-level A/OPCs we interviewed, 39 reported
                      receiving initial training, but only 15 of the 39 reported that
                      documentation was maintained (e.g., hard copy certificate in employee’s
                      file). Of those A/OPCs who reported receiving training, eight reported
                      receiving it from a departing A/OPC rather than from a formal
                      departmental or agency course, and two reported receiving it at a
                      previous position. Additionally, 32 of 50 cardholder supervisors
                      reported receiving some type of travel card training (either initial or
                      refresher), but only 12 had documentation.

                      A/OPCs and cardholder supervisors agreed on the need for additional
                      training. Twenty-eight of fifty division- and office-level A/OPCs would
                      like additional training and suggested the content be a general
                      refresher, training in the use of the card-issuing bank’s online system,
                      or program updates. Thirty-four cardholder supervisors would like
                      additional training and suggested that the content be a general
                      refresher, program updates, or training on the supervisor’s role and
                      responsibilities in the travel card program. Thirty-two of fifty
                      division- and office-level A/OPCs and 35 of 50 cardholder supervisors
                      reported that more training is needed for cardholders. The top two
                      content areas suggested were general refresher and misuse (i.e., what
                      may and may not be purchased with the travel card). One cardholder
                      supervisor explained that she maintains a log of examples of misuse


    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           14
                                                                                                       Report Template Update: 04-03-08




F   I N D I N G           S


                         that have occurred in her office and uses these to conduct a one-on-one
                         training with each new cardholder.



                      Program administrators may not            Although A/OPCs reported
                                  identify all misuse           regularly conducting transaction
                                                                reviews to identify misuse, some
                         techniques may not identify all misuse. Less than half of the A/OPCs
                         that we interviewed matched transactions with travel dates to identify
                         potential misuse. Focusing only on atypical merchants may not identify
                         lodging and airline tickets for personal travel. Limited roles for
                         cardholder supervisors may also contribute to undetected misuse.
                         Only 24 of 50 A/OPCs match transactions with travel dates
                         Although 47 of 50 division- or office-level A/OPCs reported having
                         access to travel dates contained in their agency’s travel management
                         system, only 24 mentioned matching transactions to cardholders’
                         authorized travel dates to determine whether any purchases were made
                         while the cardholders were not on official travel. Additionally, although
                         U.S. Bank offered real-time online access to transaction information to
                         all A/OPCs, only 16 of 50 mentioned using it, with 7 indicating a need
                         for additional online capabilities in the travel card program. At the
                         time of this evaluation, no automated approach existed for A/OPCs to
                         accomplish a match of transactions to travel dates. Automation is
                         particularly important given that over half of the A/OPCs we
                         interviewed reported responsibility for reviewing the transactions for 50
                         or more cardholders. In addition, all but one of the interviewed A/OPCs
                         indicated that the travel card program was not their only job duty. In
                         fact, three-fourths of the responding A/OPCs indicated that they spent
                         less than 10 percent of their time on the travel card program.
                         Efforts to detect atypical purchases may not identify all misuse
                         All 50 A/OPCs serving at the division or office level that we interviewed
                         reported that transactions are reviewed on a monthly or more frequent
                         basis. Some A/OPCs noted that their reviews involve identifying
                         unusual merchants that “pop out,” with 28 of 50 stating that they look
                         for personal purchases and 19 stating that they look for anything
                         suspicious or atypical. Based on our results that found misuse at
                         typical travel merchants, such as airlines and hotels, looking only for
                         atypical merchants may not identify all misuse.




    OEI-07-07-00480      H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           15
                                                                                                     Report Template Update: 04-03-08




F    I N D I N G        S


                       Cardholder supervisors reported limited roles in the travel card program
                       When asked to describe their involvement with the travel card program,
                       38 of 50 cardholder supervisors said that their role was minimal, limited
                       to approving travel, or nothing. In fact, 9 of 50 cardholder supervisors
                       reported that they did not know whether transaction reviews were being
                       conducted, and seven did not know what A/OPCs were looking for while
                       conducting the reviews. Finally, 18 cardholder supervisors reported
                       that they rely on A/OPCs or administrative staff to consult various
                       sources, including cardholders, to determine whether misuse occurred.
                       This may not be the best approach given that five A/OPCs volunteered
                       that questioning cardholders about potential misuse transactions can be
                       difficult. “It’s touchy to approach people on these matters,” noted one
                       A/OPC.

                       However, the 2005 ASAM memorandum to cardholder supervisors
                       states the supervisors’ roles and responsibilities for the travel card
                       program. The memorandum states that supervisors are responsible for
                       consulting with employee and labor relations staff and taking
                       appropriate action when misuse is identified. Employee and labor
                       relations office staff collectively estimated that they receive about
                       150 notifications of travel card misuse each year. This figure would
                       equate to less than 1 percent of travel card transactions in 2007. Only
                       8 of 50 cardholder supervisors volunteered that they would seek advice
                       from their employee and labor relations office if faced with travel card
                       misuse.


     Less than one-third of sampled transactions              A/OPCs for only 14 of the
                                                              48 sampled transactions that
    that constituted misuse were associated with
                                                              constituted misuse (5 of
                               follow-up actions
                                                              14 transactions from the overall
                       sample and 9 of 34 from the sample of transactions that did not match
                       electronic voucher data) reported that followup (e.g., verbal counseling,
                       disciplinary action) occurred with the cardholder before we began
                       fieldwork. For example, cardholders received no verbal counseling or
                       disciplinary action for a $283.65 hotel transaction for personal travel, a
                       $489.30 airline ticket for personal travel, and a $502.50 cash advance
                       not related to official travel. The A/OPC for this last transaction
                       indicated that the cardholder’s supervisor was not aware of this cash
                       advance at the time of our inquiry.




     OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           16
                                                                                                    Report Template Update: 04-03-08




F   I N D I N G        S


                      We cannot definitively determine whether limited followup was due to
                      the misuse not being identified (e.g., guidance did not clearly indicate
                      that the transaction was misuse, review techniques failed to identify the
                      misuse) or due to inaction on the part of the A/OPC or cardholder’s
                      supervisor in response to identified misuse. The fact that less than
                      one-third of the sampled transactions that constituted misuse were
                      associated with follow-up actions can be explained in part by
                      deficiencies in the travel card program. These deficiencies include a
                      lack of specific guidance, training that does not meet OMB
                      requirements or users’ needs, and review techniques that may not
                      identify all misuse.




    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           17
                                                                                                  Report Template Update: 04-03-08




R IE NC DO I M N MG E S N D A T
F                                                  I O N             S
Δ     R E C O M M E N D A T I O N S




                    In 2007, 6 percent of the transactions overall and 27 percent of the
                    transactions that did not match electronic voucher data constituted
                    misuse. Travel card program guidance is lacking in some areas, and
                    training does not meet OMB requirements. Furthermore, program
                    administrators may not identify all misuse. Finally, less than one-third
                    of the sampled transactions that constituted misuse were associated
                    with follow-up actions. We recognize the need for program
                    improvements while still maintaining flexibility, which is imperative
                    given the diverse size and function of agencies within HHS. We also
                    recognize that HHS transitioned to a new card-issuing bank in
                    November 2008. Even so, the information in this report may prove
                    valuable to improve the administration of the travel card program with
                    the new bank.

                    Therefore, we recommend that ASAM:
                    Improve travel card program guidance
                    Topics could include: (1) specific examples of unallowable purchases
                    with the travel card, including the six types of transactions identified in
                    this report; (2) a departmental Table of Penalties that sets minimum
                    and maximum guidelines on the actions to take for specific travel card
                    misuses; and (3) instructions for reporting travel card misuse to
                    employee and labor relations offices. In December 2008, after
                    completion of our fieldwork, the Program Support Center sent an email
                    directing travelers to the E-Gov Travel Web site. This Web site contains
                    a “Travel Card Do’s & Don’ts for Employees” page addressing some
                    aspects of guidance that this report identified as lacking.
                    Improve travel card program training
                    At a minimum, the frequency and documentation of the training must
                    meet the requirements in Appendix B of OMB Circular A-123, and the
                    training content should meet the users’ needs. Training topics could
                    include: (1) specific examples of unallowable purchases with the travel
                    card for cardholders and (2) procedures and communication strategies
                    for A/OPCs and cardholder supervisors to identify and respond to
                    misuse. In August 2008, after completion of our fieldwork, ASAM
                    issued a memorandum to heads of operating and staff divisions
                    regarding sources of training and documentation requirements.



  OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           18
                                                                                                    Report Template Update: 04-03-08




R   E C O        M M E N D A T                       I O N             S


                      Improve methods to identify misuse
                      These methods could include: (1) providing an automated
                      data-matching program to compare dates of authorized travel to
                      transaction dates and (2) communicating to A/OPCs and cardholder
                      supervisors the availability of online access to transaction information.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its written comments to the report, ASAM accepted each of the three
                      recommendations.

                      In response to the first recommendation, ASAM stated that it updated
                      the HHS Travel Manual in May 2008, published a pamphlet entitled
                      “Travel Card Do’s & Don’ts for Employees” in September 2008, and
                      updated memoranda to cardholders and cardholder supervisors in
                      February 2009. Additional actions are planned with employee and labor
                      relations staff.

                      In response to the second recommendation, ASAM stated that it has
                      coordinated with the Office of the Secretary and the General Services
                      Administration to secure travel card training compliant with
                      Appendix B of OMB Circular A-123 through HHS University. In
                      addition, ASAM is developing a training tool to enhance A/OPC and
                      cardholder supervisors’ understanding of HHS travel policy to be
                      available in May 2009.

                      In response to the third recommendation, ASAM plans to develop an
                      internal data mining tool in 2009 for all agencies to identify potential
                      travel card misuse. The tool will compare dates of authorized travel to
                      transaction dates and identify excessive cash advances, large purchases,
                      and inappropriate merchant category codes. ASAM will oversee the use
                      of the tool.

                      We did not make any changes to the report based on ASAM’s comments.
                      The full text of ASAM’s comments on the draft report can be found in
                      Appendix D.




    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           19
                                                                                                                Report Template Update: 04-03-08




 Δ           A P P E N D I X ~ A

                                  Table A-1: Sampled Transactions by Agency

                                                                                                                 Population of                Sampled
                                                                                                            Transactions That        Transactions That
                                                                                      Sampled
Agency                                              Population                                                  Did Not Match            Did Not Match
                                                                                  Transactions
                                                                                                           Electronic Voucher       Electronic Voucher
                                                                                                                         Data                     Data

Administration for Children & Families                          18,458                                16                    1,608                    3


Administration on Aging                                           1,422                                0                      156                    0


Agency for Healthcare Research and
                                                                 1,079                                 1                      239                    1
Quality

Centers for Disease Control and
                                                               82,333                                 40                   14,912                   60
Prevention

Centers for Medicare & Medicaid
                                                                35,230                                20                    2,992                   13
Services


Food and Drug Administration                                    49,188                                29                    6,089                   49


Health Resources and Services
                                                                12,038                                 9                    1,919                    7
Administration


Indian Health Service                                           55,768                                38                   11,525                   20


National Institutes of Health                                   26,261                                18                    6,670                   26


Office of the Secretary                                         56,383                                46                    6,230                   30


Program Support Center                                            2,350                                0                      364                    2


Substance Abuse & Mental Health
                                                                  5,931                                3                      800                    2
Services Administration

 Total                                                        346,441                                220                   53,504                  213
Source: Office of Inspector General analysis of U.S. Bank database of 2007 Department of Health and Human Services’ travel card
transactions, 2008.




         OEI-07-07-00480          H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           20
                                                                                                       Report Template Update: 04-03-08




Δ   A P P E N D I X ~ B

          Table B-1: Sampled Agency/Organization Program Coordinators by Agency

                                                                                                                         Number of
                                                                                                          Number of
                                                                                       Number of                          Sampled
           Agency                                                                                           Primary
                                                                                      Cardholders                          Primary
                                                                                                            A/OPCs
                                                                                                                           A/OPCs
           Administration for Children & Families                                                958                23             2
           Administration on Aging*                                                               79                 0             0
           Agency for Healthcare Research and Quality*                                           154                 0             0
           Centers for Disease Control and Prevention                                          5,994                47             9
           Centers for Medicare & Medicaid Services                                            2,596                 4             3
           Food and Drug Administration                                                        6,757                50            10
           Health Resources and Services Administration                                        1,055                20             2
           Indian Health Service                                                               3,111                76             5
           National Institutes of Health                                                       3,217                66             5
           Office of the Secretary                                                             8,333                78            12
           Program Support Center                                                                381                 4             1

           Substance Abuse & Mental Health Services
                                                                                                 335                 2             1
           Administration

             Total                                                                            32,970              370             50

           Source: Office of Inspector General analysis of U.S. Bank databases of Department of Health and
           Human Services’ cardholders and Agency/Organization Program Coordinators (A/OPC), 2008.

           *The Administration on Aging and the Agency for Healthcare Research and Quality have principal
           A/OPCs at the agency level but do not have any A/OPCs at the division or office level.




OEI-07-07-00480        H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                                21
                                                                                                                     Report Template Update: 04-03-08




      Δ          A P P E N D I X ~ C

                                       Table C-1: Point Estimates and Confidence Intervals

                                                                                                                                         Confidence Interval
Finding                                                                                                          Point Estimate
                                                                                                                                                 95 Percent

Overall Sample of 2007 Travel Card Transactions

Transactions that constituted misuse                                                                                            6.4%                  3.5%–10.5%

Transactions that constituted misuse because they were for personal purchases
                                                                                                                                4.1%                   1.9%–7.6%
while the cardholder was not on official travel

Transactions that constituted misuse because they were for personal purchases
                                                                                                                                1.0%                   0.1%–3.3%
while the cardholder was on official travel

Transactions that constituted misuse because they were for local travel expenses                                                1.4%                   0.3%–3.9%


Sample of 2007 Travel Card Transactions That Did Not Match Electronic Voucher Data

Transactions that constituted misuse                                                                                           26.7%                19.1%–35.9%


Dollar amount of transactions that constituted misuse                                                                     $1.4 million    $0.8 million–$1.9 million


Average dollar amount of transactions that constituted misuse                                                                 $97.30              $66.31–$128.30


Transactions that constituted misuse because they were for personal purchases                                                  21.3%                14.4%–30.3%


Transactions that constituted misuse because they were for local travel expenses                                                2.1%                   0.5%–8.0%


Transactions that constituted misuse because they were for conference registration                                              2.1%                   0.1%–6.0%

Transactions that constituted misuse because they were for travel-related expenses
                                                                                                                                1.2%                   0.2%–6.4%
of persons other than the cardholders
Source: Office of Inspector General analysis of agency/organization program coordinators’ responses to transaction inquiries, 2008.




             OEI-07-07-00480           H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                                22
                                                                                                Report Template Update: 04-03-08




Δ   A P P E N D I X ~ D




OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           23
                                                                                                    Report Template Update: 04-03-08




A   P   P E N D       I X           ~          D




    OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           24
                                                                                                Report Template Update: 04-03-08




Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Tricia Fields served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Kansas City regional
                  office who contributed to the report include Rae Bozworth, Julie Dusold,
                  Lt. Mike Garner, and Dennis Tharp; central office staff who contributed
                  include Robert Gibbons and Scott Manley.




OEI-07-07-00480   H H S E M P L O Y E E T R AV E L C A R D S : U S A G E   AND   INTERNAL CONTROLS                           25
